CERTIFICATE OF COMPLIANCE
No. 20-1136
CAPITAL CASE

PETER CAPOTE, Petitioner,
v.
STATE OF ALABAMA, Respondent.

As required by Supreme Court Rule 33.l(h), I certify that the petition for a
writ of certiorari contains 1, 100 words, excluding parts of the petition that are
exempted by Supreme Court Rule 33.l(d).
I declare under the penalty of perjury that the foregoing is true and correct.

Executed on March 25, 2021

PAUL SHECHTMAN

Counsel of Record
Bracewell LLP
1251 Avenue of the Americas
49th Floor
New York, NY 10020
paul.shechtman@bracewell.com
(212) 508-6107

Counsel for Petitioner

